    Office of Inspector General




September 21, 2004

SUZANNE F. MEDVIDOVICH
SENIOR VICE PRESIDENT, HUMAN RESOURCES

DEWITT O. HARRIS
VICE PRESIDENT, EMPLOYEE RESOURCE MANAGEMENT

SUBJECT:          Audit Report – Summary Report on the Efforts to Prevent Accidents,
                  Injuries, and Illnesses in 12 Performance Clusters
                  (Report Number HM-AR-04-012)

This report presents the summary of our nationwide self-initiated audits of the efforts
to prevent accidents, injuries, and illnesses in 12 performance clusters located in
six areas (2 performance clusters each) of operation (Project Number
03YG011LH000). Our overall objective was to determine whether the performance
clusters were reducing the number of accidents, injuries, and illnesses through
prevention methods. This report summarizes the conditions reported in the
12 performance clusters, and focuses on management’s actions taken or planned to
correct the issues identified and implement recommendations made in our reports.
This report also includes the results of our best practices review of safety issues.
This capping report is the seventh and final report in a series of reports we have
issued regarding accident prevention initiatives.

The 12 performance clusters have implemented prevention initiatives that can
become best practices in reducing accidents, injuries, and illnesses. For example,
the Arkansas and Mississippi Performance Clusters implemented a strobe light
program to reduce motor vehicle accidents. The Mid-America and Oklahoma
Performance Clusters implemented initiatives to prevent slips, trips, and falls due to
icy conditions. In addition, the Oakland Performance Cluster implemented mapping
software to identify problem sites for motor vehicle accidents.

Three of the 12 performance clusters were reducing accidents, injuries, and
illnesses through prevention initiatives, and implemented initiatives in a timely
manner. However, we could not determine if this was the case at the remaining
nine clusters because the safety tool kit did not allow personnel to track and monitor
the effectiveness of specific initiatives or document when initiatives were
implemented. Postal Service Headquarters officials took corrective action by


   1735 N Lynn St.
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
changing the safety tool kit to allow safety managers to monitor and track preventive
initiatives for effectiveness.

We noted opportunities for improvement in three performance clusters, in the areas
of resources/safety staffing and safety training. District management were
responsive to the recommendations and provided planned or completed actions,
which should correct the issues.

The 36 facilities we visited in the 12 performance clusters were accumulating and
analyzing accident, injury, and illness data for prevention initiatives. However,
two performance clusters generated reports from the Human Resources Information
Systems and the Risk Management Reporting System that were inconsistent with
one another, and did not provide an efficient method of analyzing data for prevention
initiatives. Both systems are antiquated and Postal Service Headquarters officials
said the Injury Compensation Performance Analysis System will replace certain
components of both systems commencing in calendar year 2005.

All 36 facilities we visited in the 12 performance clusters used reporting processes
within various functional areas that facilitated accurate reporting of accidents,
injuries, and illnesses. However, several facilities in one performance cluster can
improve their completion of accident report forms. The District Manager agreed with
our recommendation and the planned action should correct the issue.

Further, we identified best practices used by seven private companies that could
help the performance clusters measure the effectiveness of accident prevention
initiatives.

We commend the Postal Service and the American Postal Workers Union on their
agreement to promote the Occupational Safety and Health Administration’s
Voluntary Protection Program that will enhance worker safety and health. We also
commend the Postal Service and the National Association of Letter Carriers for their
efforts in piloting an ergonomic risk reduction process for letter carriers in Albany,
New York. In addition, at the national level, they have established a task force to
pilot the Joint Safety and Health Committees to focus on reducing injuries specific to
letter carriers.

Two of the six reports included four recommendations to officials in two areas of
operation (three performance clusters). Officials agreed with the recommendations
and provided corrective actions taken or planned, which we considered responsive.
Management’s comments and our evaluation of these comments are included in this
report.

Management stated they had no disagreements with our report. Management also
stated it is their opinion that the audit team delivered a balanced report and they
appreciate the cooperation and courtesies that were afforded to their field and
headquarters’ managers and staffs by the audit team.
We appreciate the cooperation and courtesies provided by your staff during the
audit. We are especially appreciative of Mr. Samuel M. Pulcrano, who worked with
the audit team to ensure successful completion of our work. If you have any
questions, or need additional information, please contact Chris Nicoloff, Director,
Human Capital, or me at (703) 248-2300.


/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Operations and Human Capital

Attachment

cc: John A. Rapp
    Samuel M. Pulcrano
    Sylvester Black
    William J. Brown
    Jo Ann Feindt
    Alfred Iniguez
    George L. Lopez
    David L. Solomon
    Peter J. Bedard
    Mangala P. Gandhi
    Raymond T. Murphy
    Robert D. Noonan
    Akinyinka O. Akinyele
    William Almaraz
    Kenneth J. Braun
    Winton A. Burnett
    James A. Daily
    Michael P. Jordan
    Vinnie Malloy
    Kenneth S. McArthur
    Ormer Rogers
    Thomas F. Rosati
    William C. Rucker
    E. W. Waldemayer, Jr.
    Steven R. Phelps
Summary Report on the Efforts to Prevent Accidents,                HM-AR-04-012
 Injuries, and Illnesses in 12 Performance Clusters


                                 TABLE OF CONTENTS

Executive Summary                                                       i

Part I

Introduction                                                           1

    Background                                                         1
    Objectives, Scope, and Methodology                                 3
    Prior Audit Coverage                                               4

Part II

Audit Results                                                          5

   Accident Prevention Initiatives Have Potential to
   Become Best Practices                                               6

    Effectiveness of Prevention Initiatives Unknown                    7
        Corrective Action Taken                                        9

    Timeliness of Prevention Initiatives Unknown                      10
       Corrective Action Taken                                        11
       Opportunities for Improvement – Resources/Safety Staffing      11
       Opportunity for Improvement – Safety Training                  14

   Accident Reporting Systems                                         15
     Corrective Actions Planned                                       16

    Most Reporting Processes Were Adequate                            16
      Opportunity for Improvement – Accident Report Forms             18

   Carriers Exposed to Unnecessary Risks                              19
     Corrective Action Taken                                          19

   Best Practices                                                     19
     Measuring for Effectiveness                                      19
     Initiatives Reduced Accident Rates                               21
     Frequency of Measuring Effectiveness                             21

   Headquarters’ Initiatives                                          22
   Management’s Comments                                              23
Summary Report on the Efforts to Prevent Accidents,                     HM-AR-04-012
 Injuries, and Illnesses in 12 Performance Clusters




Appendix A. Abbreviations and Acronyms                                     24

Appendix B. List of Audit Reports for Six Areas of Operation               25

Appendix C. General Findings in 12 Performance Clusters                    26

Appendix D. Scope and Methodology                                          27

Appendix E. Prevention Initiatives in 12 Performance Clusters Located
            in 6 Areas of Operation                                        30

Appendix F. OSHA Injury and Illness and Motor Vehicle Accident
            Numbers and Average Frequency Rates in 12 Performance
            Clusters for FYs 2002 and 2003                                 32

Appendix G. List of 36 Facilities Visited                                  33

Appendix H. Profiles of Postal Service and Private Companies as of
            December 2003                                                  34

Appendix I. Management’s Comments                                          35
Summary Report on the Efforts to Prevent Accidents,                                HM-AR-04-012
 Injuries, and Illnesses in 12 Performance Clusters


                                EXECUTIVE SUMMARY
 Introduction                  This report summarizes the results of our self-initiated audit
                               to determine whether 12 performance clusters, located in
                               6 Postal Service areas of operation, were reducing the
                               number of accidents, injuries, and illnesses through
                               prevention initiatives. In addition, we identified best
                               practices used by seven private companies that could help
                               the performance clusters measure the effectiveness of
                               accident prevention initiatives.

 Results in Brief              The 12 performance clusters in 6 areas have implemented
                               prevention initiatives that can become best practices in
                               reducing accidents, injuries, and illnesses. For example,
                               Arkansas and Mississippi implemented a strobe light
                               program to reduce motor vehicle accidents. Mid-America
                               and Oklahoma implemented initiatives to prevent slips, trips,
                               and falls due to icy conditions. In addition, Oakland
                               implemented mapping software to identify problem sites for
                               motor vehicle accidents. (See Appendix E for a list of the
                               performance clusters and their initiatives.)

                               Three of the twelve performance clusters were reducing
                               accidents, injuries, and illnesses, through prevention
                               initiatives, and implemented initiatives in a timely manner.
                               However, we could not determine at the remaining
                               nine clusters, if the prevention initiatives reduced the
                               number of accidents, injuries, and illnesses, or if the
                               initiatives were implemented in a timely manner. This
                               occurred because the safety tool kit did not allow safety
                               personnel to:

                                    •   Track and monitor the effectiveness of specific
                                        prevention initiatives.
                                    •   Document when initiatives were implemented.

                               Postal Service Headquarters officials took corrective action
                               by changing the safety tool kit to allow safety managers to
                               monitor and track prevention initiatives for effectiveness.

                               We noted opportunities for improvement in
                               three performance clusters, in the areas of resources/
                               safety staffing and safety training. District management
                               were responsive to the recommendations and provided
                               planned or completed actions, which should correct the
                               issues.


                                                  i
Summary Report on the Efforts to Prevent Accidents,                                                  HM-AR-04-012
 Injuries, and Illnesses in 12 Performance Clusters



                                   In addition, the 36 facilities we visited in the 12 performance
                                   clusters were accumulating and analyzing accident, injury,
                                   and illness data for prevention initiatives. However,
                                   two performance clusters generated reports from the
                                   Human Resources Information Systems (HRIS) and the
                                   Risk Management Reporting System (RMRS) that were
                                   inconsistent with one another, and did not provide an
                                   efficient method of analyzing data for prevention initiatives.
                                   Both systems are antiquated and Postal Service
                                   Headquarters officials told us the Injury Compensation
                                   Performance Analysis System will replace certain
                                   components of HRIS and RMRS commencing in calendar
                                   year 2005.

                                   All 36 facilities in the 12 performance clusters used
                                   reporting processes within various functional areas that
                                   facilitated accurate reporting of accidents, injuries, and
                                   illnesses. However, several facilities in one performance
                                   cluster can improve their completion of accident report
                                   forms. The District Manager agreed with our
                                   recommendation and the planned action should correct the
                                   issue. (See Appendix C for a list of the general findings in
                                   the 12 performance clusters.)

                                   There was also a safety carrier issue at one facility and the
                                   District Manager took corrective action.

                                   Further, we identified best practices1 used by seven private
                                   companies that could help the performance clusters
                                   measure the effectiveness of accident prevention initiatives.
                                   (See Appendix H for a profile of the seven companies.)

                                   We commend the Postal Service and the American Postal
                                   Workers Union on their agreement to jointly promote the
                                   Occupational Safety and Health Administration’s Voluntary
                                   Protection Program that will enhance worker safety and
                                   health. We also commend the Postal Service and the
                                   National Association of Letter Carriers for their joint efforts
                                   in piloting an ergonomic risk reduction process for letter
                                   carriers in Albany, New York. In addition, at the national
                                   level, they have established a task force to pilot the Joint


1
  The American Productivity and Quality Center Benchmarking Terms stated, “There is no single “best practice”
because best is not best for everyone. Every organization is different in some way. What is meant by “best” are
those practices that have been shown to produce superior results, selected by a systematic process, and judged
as exemplary, good, or successfully demonstrated. Best practices are then adapted to fit a particular
organization.”

                                                       ii
Summary Report on the Efforts to Prevent Accidents,                              HM-AR-04-012
 Injuries, and Illnesses in 12 Performance Clusters



                               Safety and Health Committees to focus on reducing injuries
                               specific to letter carriers.

 Summary of                    Management stated they had no disagreements with the
 Management’s                  draft version of this report. Management also stated it is
 Comments                      their opinion that the audit team delivered a balanced report
                               and they appreciate the cooperation and courtesies that
                               were afforded to their field and headquarters’ managers and
                               staffs by the audit team. Management’s comments, in their
                               entirety, are included in Appendix I of this report.




                                                 iii
Summary Report on the Efforts to Prevent Accidents,                                                     HM-AR-04-012
 Injuries, and Illnesses in 12 Performance Clusters



                                              INTRODUCTION
    Background                      With responsibility for more than 38,000 facilities, major
                                    transportation networks, and universal delivery, the Postal
                                    Service faces significant challenges in the areas of health
                                    and safety. These include making the health and safety of
                                    Postal Service employees a priority, managing the
                                    associated costs and lost productivity in operations, and
                                    responding when accidents and injuries have an
                                    unfavorable impact on the workplace. In addition, the
                                    Postal Service must address citations and monetary
                                    penalties for noncompliance with Occupational Safety and
                                    Health Administration (OSHA) standards.

                                    In its April 2002, Transformation Plan, the Postal Service
                                    stated that to meet its challenges and prepare for
                                    transformation, it would implement a number of strategies to
                                    “push business effectiveness and operational efficiency.”
                                    One of the strategies outlined was to reduce its workers’
                                    compensation costs. According to the Office of Workers’
                                    Compensation Programs’ (OWCP) chargeback1 reports, the
                                    Postal Service workers’ compensation costs have increased
                                    from $538 million to $830 million between chargeback
                                    years 1997 and 2004.2

                                    The following table is a comparison of Postal Service-wide
                                    accidents3 and OSHA injuries and illnesses4 for fiscal
                                    years (FY) 2002 and 2003, which shows decreases in
                                    four categories. In addition, total expenses in FY 2003
                                    decreased significantly.




1
  The OWCP’s chargeback system is the mechanism by which the Department of Labor annually bills the cost of
compensation for work-related injuries and deaths to employing agencies.
2
  The OWCP’s chargeback year is July 1 through June 30.
3
  The Postal Service considers accidents as all reportable and nonreportable incidents, including unadjudicated
occupational illness cases that cover certain kinds of injuries, illnesses, or damages. OSHA defines an accident
as any unplanned event that results in personal injury or property damage.
4
  OSHA defines an injury or illness as an abnormal condition or disorder. Injuries include, but are not limited to,
cuts, fractures, sprains, or amputations. Illnesses include both acute and chronic illnesses such as, but not
limited to skin diseases, respiratory disorders, or poisoning.




                                                         1
Summary Report on the Efforts to Prevent Accidents,                                                    HM-AR-04-012
 Injuries, and Illnesses in 12 Performance Clusters



                               Table 1. Comparison of Postal Service-wide Accidents and
                                        OSHA Injuries and Illnesses, FYs 2002 and 2003

                                       Category                FY 2002              FY 2003
                                 Motor Vehicle                       23,404                   23,100
                                 Accidents
                                 Non-Motor Vehicle                   99,195                   93,251
                                 Accidents
                                 OSHA Injuries                       51,630                   46,317
                                 OSHA Illnesses                       6,972                    5,550
                                 Total Accident, Injury,      $1,652,449,865        $1,620,024,027
                                 and Illness Expenses

                               Source: Postal Service Web-Enabled Enterprise Information System (WebEIS).


                               The average total OSHA injury and illness and accident
                               frequency rates for the 12 performance clusters we visited
                               are shown in the table below.

                               Table 2. Average Total OSHA Injury and Illness Rates and
                                        Accident Frequency Rates, FYs 2002 and 2003

                                                           Average Total OSHA          Average Total
                                   Performance              Injury and Illness           Accident
                                      Cluster               Frequency Rates          Frequency Rates*
                                 Arkansas                                    5.70               14.50
                                 Chicago                                     6.15               10.51
                                 Greater Indiana                             8.71               21.12
                                 Long Island                                 9.39               17.11
                                 Los Angeles                                 5.70               11.10
                                 Mid-America                                 5.40               15.80
                                 Mississippi                                 4.33               11.86
                                 New York                                    4.23                 9.69
                                 Oakland                                     9.30               20.40
                                 Oklahoma                                     9.0               18.90
                                 Salt Lake City                              8.80               23.80
                                 Suncoast                                    8.30               18.73

                               Source: Postal Service WebEIS.

                               * This column indicates the average number of employees out of every
                               100 employees that had an accident during a specific period.


                               Postal Service Headquarters officials stated that accident
                               reduction initiatives and accident reduction communications
                               are responsible for the reduction in accidents. They also
                               said the core headquarters’ accident reduction initiatives
                               require every district to complete and implement an accident
                               reduction plan for each of the eight targeted reduction
                               areas.



                                                       2
Summary Report on the Efforts to Prevent Accidents,                                                  HM-AR-04-012
 Injuries, and Illnesses in 12 Performance Clusters




                                   To determine why the number of accidents, injuries, and
                                   illnesses declined, we conducted a survey of accident
                                   prevention initiatives in the Postal Service’s Western
                                   New York and Baltimore Performance Clusters, located in
                                   the Northeast and Capital Metro Areas, respectively. Our
                                   results showed that accident prevention initiatives in each
                                   performance cluster were different and yielded contrasting
                                   results.

                                   We conducted this audit to determine whether similar
                                   situations existed in 12 performance clusters located in
                                   6 areas of operation (2 performance clusters each). We did
                                   not audit the performance clusters’ overall safety programs.
                                   Our focus was on accident prevention initiatives at the
                                   locations we visited.

                                   This report summarizes our review of accident prevention
                                   initiatives reported in the 12 performance clusters.
                                   Appendix B is a list of six reports we issued. Appendix C
                                   shows each of the performance clusters and the general
                                   findings in each cluster.

    Objectives, Scope,             Our overall objective was to determine if the
    and Methodology                12 performance clusters were reducing the number
                                   of accidents, injuries, and illnesses through prevention
                                   initiatives. Our four subobjectives were to determine
                                   whether:

                                       •    The number of accidents and injuries were declining
                                            as a result of corrections to unsafe working
                                            conditions and practices.5

                                        • Corrective actions and/or prevention initiatives were
                                          made in a timely manner.

                                       •    Data were being accumulated and analyzed for
                                            prevention initiatives.

                                       •    Processes facilitated accurate reporting.



5
  Corrections to unsafe working conditions and practices were considered both corrective actions and prevention
initiatives. The purpose of this subobjective was to determine the effectiveness of prevention initiatives.




                                                       3
Summary Report on the Efforts to Prevent Accidents,                               HM-AR-04-012
 Injuries, and Illnesses in 12 Performance Clusters




                               A second objective was to identify best practices to help the
                               performance clusters measure the effectiveness of accident
                               prevention initiatives.

                               We discuss our scope and methodology in Appendix D.

 Prior Audit Coverage          In the 12 performance clusters, we did not identify any prior
                               audits or reviews related to the objectives of this audit.




                                                 4
Summary Report on the Efforts to Prevent Accidents,                                        HM-AR-04-012
 Injuries, and Illnesses in 12 Performance Clusters



                                                 AUDIT RESULTS
                                       The 12 performance clusters have implemented accident
                                       prevention initiatives that have the potential to become best
                                       practices. In three performance clusters (Arkansas,
                                       New York, and Oklahoma), data showed the reduction in
                                       the number of accidents, injuries, and illnesses was the
                                       result of prevention initiatives. Also, in three performance
                                       clusters (Arkansas, Long Island, and Oklahoma), initiatives
                                       were implemented in a timely manner. We did not evaluate,
                                       however, the timeliness of prevention initiatives in
                                       one performance cluster (New York) because new initiatives
                                       were not implemented during the audit scope. We could not
                                       determine whether the remaining performance clusters were
                                       reducing the number of accidents, injuries, and illnesses
                                       through prevention initiatives, or whether the initiatives were
                                       implemented in a timely manner.

                                       We also noted opportunities for improvement in the areas
                                       of resources/safety staffing and safety training in the
                                       Long Island, New York, and Salt Lake City Performance
                                       Clusters.

                                       In addition, all 366 facilities visited in the 12 performance
                                       clusters, were accumulating and analyzing accident, injury,
                                       and illness data for prevention initiatives in two different
                                       automated systems. However, two performance clusters
                                       generated reports from both systems that did not always
                                       reconcile. The Postal Service recognizes both systems are
                                       antiquated and there are plans to replace them. See
                                       Appendix G for a list of the 36 facilities visited.

                                       Also, the reporting processes used within the various
                                       functional areas in all 36 facilities, facilitated accurate
                                       reporting of accidents, injuries, and illnesses. However, we
                                       noted opportunities for improvement in the Mississippi
                                       Performance Cluster.

                                       There was also a safety carrier issue at one facility and the
                                       District Manager took corrective action.




6
    We visited three facilities in each of the 12 performance clusters.




                                                            5
Summary Report on the Efforts to Prevent Accidents,                                                  HM-AR-04-012
 Injuries, and Illnesses in 12 Performance Clusters



                                  Further, we identified several best practices7 used by
                                  seven private companies that could help the performance
                                  clusters measure the effectiveness of accident prevention
                                  initiatives.

                                  We commend the Postal Service and the American Postal
                                  Workers Union (APWU) on their agreement to jointly
                                  promote the OSHA Voluntary Protection Program (VPP)
                                  that will enhance worker safety and health. We also
                                  commend the Postal Service and the National Association
                                  of Letter Carriers (NALC) for their joint efforts in piloting an
                                  ergonomic risk reduction process for letter carriers in
                                  Albany, New York. In addition, at the national level, the
                                  Postal Service and the NALC have established a task force
                                  to pilot the Joint Safety and Health Committees to focus on
                                  reducing injuries specific to letter carriers.

    Accident Prevention           The 12 performance clusters’ prevention initiatives have the
    Initiatives Have              potential to become best practices in reducing accidents,
    Potential to Become           injuries, and illnesses. These initiatives could also help
    Best Practices                other performance clusters to enhance their safety
                                  programs. For example, the Arkansas and Mississippi
                                  Performance Clusters implemented a strobe light program
                                  to reduce motor vehicle accidents. Mid-America and
                                  Oklahoma implemented initiatives to prevent slips, trips, and
                                  falls due to icy conditions. In addition, the Oakland
                                  Performance Cluster implemented mapping software to
                                  identify problem sites for motor vehicle accidents. A list of
                                  prevention initiatives in each performance cluster is included
                                  in Appendix E of this report.

                                  Postal Service Headquarters officials stated they will review
                                  and evaluate the accident prevention initiatives contained
                                  within the six final area reports, and post those activities
                                  demonstrating significant contribution to accident reduction
                                  within the “Best Practice” section of the Postal Service’s
                                  safety tool kit.8



7
  The American Productivity and Quality Center Benchmarking Terms stated, “There is no single “best practice”
because best is not best for everyone. Every organization is different in some way. What is meant by “best” are
those practices that have been shown to produce superior results, selected by a systematic process, and judged
as exemplary, good, or successfully demonstrated. Best practices are then adapted to fit a particular
organization.”
8
  The Safety Tool Kit is a Web-based application available for use by safety managers, Postal Service-wide, to
assess their safety programs.




                                                       6
Summary Report on the Efforts to Prevent Accidents,                                HM-AR-04-012
 Injuries, and Illnesses in 12 Performance Clusters



                               The Mississippi and Suncoast District Managers, stated
                               they will continue their efforts in accident prevention through
                               hazard assessments and site-specific initiatives while
                               maintaining their focus on headquarters mandated, target
                               specific, action plans. The Suncoast District Manager,
                               stated his district will continue to establish action plans as
                               needed, monitor for trends and results, and implement
                               necessary activities.

                               The Manager, Oakland District, stated the district
                               implemented programs/activities that were both area and
                               district driven which they believe are best practices.
                               Management also stated the overall number of
                               accidents has decreased, but it is too soon to determine if
                               there is a direct correlation between the implemented
                               programs/activities and the improved performance. They
                               are confident; however, with the current progress of their
                               programs and the impact they are having in reducing the
                               number of accidents.

 Effectiveness of               For FYs 2002 and 2003, 3 of the 12 performance clusters
 Prevention Initiatives         (Arkansas, New York, and Oklahoma) were reducing
 Unknown                        accidents, injuries, and illnesses through prevention
                                initiatives. For example, the New York District Office, in the
                                New York Metro Performance Cluster, measured the
                                effectiveness of its driver improvement training program,
                                which indicated that 90 percent of those receiving the
                                training had no subsequent motor vehicle accidents. In
                                addition, the Oklahoma Performance Cluster implemented
                                a mobile driving course in September 2002 and
                                experienced a substantial decrease in preventable motor
                                vehicle accidents from 52 to 34 (35 percent reduction) as of
                                September 2003.

                                We could not determine whether the remaining
                                9 performance clusters (Chicago, Greater Indiana,
                                Long Island, Los Angeles, Mid-America, Mississippi,
                                Oakland, Salt Lake City, and Suncoast) were reducing the
                                number of accidents, injuries, and illnesses through
                                prevention initiatives. We could not make this
                                determination because the safety tool kit did not allow
                                safety managers to track and monitor specific prevention
                                initiatives.




                                                 7
Summary Report on the Efforts to Prevent Accidents,                                               HM-AR-04-012
 Injuries, and Illnesses in 12 Performance Clusters




                                  Although some categories of accidents (slips, trips, falls,
                                  and lifts) had decreased in the nine performance clusters,
                                  the reasons for the decreases could not be determined.
                                  District safety personnel told us they did not think
                                  decreases in the number of accidents were related to
                                  specific prevention initiatives.

                                  All 12 performance clusters had implemented several
                                  accident prevention initiatives for FYs 2002 and 2003;
                                  however, their numbers and frequency rates9 varied
                                  for OSHA injuries and illnesses and motor vehicle
                                  accidents. For example, Long Island’s OSHA injury
                                  and illness and motor vehicle accident numbers and
                                  frequency rates increased. Conversely, Arkansas,
                                  Chicago, Greater Indiana, New York, Oklahoma, Salt Lake
                                  City, and Suncoast numbers and rates decreased. The
                                  remaining 4 (Los Angeles, Mid-America, Mississippi, and
                                  Oakland) performance clusters’ OSHA injury and illness
                                  and motor vehicle accident numbers and rates increased,
                                  decreased, or stayed about the same. See Appendix F for
                                  these and other changes.

                                  Postal Service policy10 states that safety personnel are
                                  responsible for developing and monitoring a
                                  comprehensive safety and health program and analyzing
                                  accident, injury, and illness data so they can advise
                                  management on corrective actions. Policy11 also requires
                                  installations to develop methods to identify program needs
                                  for accident preventions. In addition, policy12 requires
                                  supervisors to implement written programs and action
                                  plans, monitor employees’ safety performance, and prevent
                                  operational safety accidents.

                                  Without adequate measurement tools, the Postal Service
                                  does not have reasonable assurance that prevention
                                  initiatives help the performance clusters reduce the number
                                  of accidents, injuries, and illnesses. To follow prudent
                                  business practices, Postal Service managers should
                                  evaluate whether prevention initiatives are accomplishing
9
  OSHA injury and illness and motor vehicle accident frequency rates are the number of accidents per
100 employees for a specific period of time. These rates provide measurements that make accident data
comparable between large and small facilities.
10
   Employee and Labor Relations Manual 17.2, Section 813.31, February 2003.
11
   Employee and Labor Relations Manual 17.2, Section 821.32, February 2003.
12
   Supervisor’s Safety Handbook, Handbook EL-801, Chapter 1, Section 1-1, May 2001.




                                                     8
Summary Report on the Efforts to Prevent Accidents,                                                HM-AR-04-012
 Injuries, and Illnesses in 12 Performance Clusters



                                   their goal and whether the resources expended are
                                   justified.

                                   Southwest Area management stated the report accurately
                                   reflects the level of attention and focus that both District
                                   Managers (Arkansas and Oklahoma) give to protecting the
                                   Postal Service’s most valuable assets from job-related
                                   injuries. They stated that both performance clusters use
                                   CustomerPerfect!13 a data-driven process that closely
                                   aligns with the organization’s core values, to determine the
                                   causes of accidents and the gaps in processes.
                                   Management stated these activities are routinely validated
                                   through internal and external sources in the form of
                                   program evaluations and leadership business reviews.

                                   Western Area management agreed that although accident
                                   reductions in the Mid-America and Salt Lake City
                                   Performances Clusters were realized, it is difficult to
                                   determine whether the specific safety initiatives
                                   implemented were the reason for improved performance.
                                   They believed each performance cluster implemented
                                   programs based on periodic reports and queries that
                                   identified specific weaknesses. They stated, however, that
                                   unfortunately, neither cluster was able to provide dated
                                   reports or meeting minutes linking the weaknesses with the
                                   exact implementation date of an initiative and the related
                                   reduction. This shortcoming should be resolved once the
                                   clusters enter implementation and completion dates for
                                   initiatives, in the safety toolkit.

 Corrective Action                 Headquarters officials modified the safety tool kit on
 Taken                             April 22, 2004, to include trend line charts that will allow
                                   safety managers to track and monitor specific prevention
                                   initiatives. We believe this action is responsive and should
                                   correct the issue identified.




13
  CustomerPerfect! was implemented to help the Postal Service to meet the challenges of an increasingly
competitive environment.




                                                      9
Summary Report on the Efforts to Prevent Accidents,                                HM-AR-04-012
 Injuries, and Illnesses in 12 Performance Clusters




 Timeliness of                  For FYs 2002 and 2003, 3 of the 12 performance clusters
 Prevention Initiatives         (Arkansas, Long Island, and Oklahoma) implemented
 Unknown                        prevention initiatives in a timely manner. For example,
                                Arkansas purchased orange warning sticks for long-life
                                vehicles in 2000 and their useful life was three years. The
                                performance cluster began replacing these in the spring of
                                2003 and finished by the end of the year. In addition, the
                                Long Island Performance Cluster initiated action to
                                “champion” poorly performing units immediately after they
                                established a pattern of poor performance in March 2003.

                                We did not evaluate the timeliness of preventive initiatives
                                in one performance cluster (New York) because new
                                initiatives were not implemented during the audit scope,
                                which began September 8, 2001, and ended July 31, 2003.
                                For the remaining eight performance clusters, (Chicago,
                                Greater Indiana, Los Angeles, Mid-America, Mississippi,
                                Oakland, Salt Lake City, and Suncoast) we could not
                                determine whether prevention initiatives were implemented
                                timely because the safety tool kit did not allow safety
                                managers to document when initiatives were implemented.

                                District safety personnel at four of the performance clusters
                                (Chicago, Greater Indiana, Mississippi, and Suncoast)
                                confirmed that facility managers are responsible for
                                documenting when prevention initiatives are implemented.

                                The Manager, New York District, stated during
                                September 8, 2001, through July 31, 2003, several
                                prevention initiatives were in place. He stated the changes
                                implemented before September 8, 2001, have proven their
                                value over time, and the district continues to include them
                                in their accident reduction plans. Management provided
                                the following list of initiatives:

                                    •   A weekly review of district accidents by a review
                                        board.
                                    •   An Accident Awareness Prevention Training
                                        Program.
                                    •   A Driver Improvement Training Program.
                                    •   A Safety Captain Program.
                                    •   The establishment of safety and health committees
                                        for facilities with 50 or more employees.



                                                 10
Summary Report on the Efforts to Prevent Accidents,                                                    HM-AR-04-012
 Injuries, and Illnesses in 12 Performance Clusters



                                      We agreed the Long Island Performance Cluster
                                      implemented prevention initiatives, and we provided an
                                      example in the Accident Prevention Initiatives section of the
                                      report. See Appendix E of this report for a list of the
                                      prevention initiatives.

 Corrective Action                    Postal Service Headquarters officials modified the safety
 Taken                                tool kit on April 22, 2004, to include a field for managers to
                                      enter the implementation and completion dates for
                                      prevention initiatives. Both dates are also visible on trend
                                      line charts for each specific initiative. This action is
                                      responsive and should correct the issue identified.

 Opportunities for                   In determining both the effectiveness and timeliness of
 Improvement –                       prevention initiatives, we noted opportunities for
 Resources/Safety                    improvement in the Long Island, New York, and Salt Lake
 Staffing                            City Performance Clusters. Specifically, there may not be
                                     sufficient safety staff to support effective accident
                                     prevention programs.

                                     The Mid-Island Processing and Distribution Center, in the
                                     Long Island Performance Cluster, with approximately
                                     2,400 employees, had one safety specialist assigned. The
                                     Long Island Priority Mail Processing Center had no on-site
                                     safety specialists assigned. Although it had a smaller
                                     employee complement (approximately 400 employees), the
                                     District Safety Specialist who serviced the center also
                                     provided support for 40 other facilities within the
                                     performance cluster.

                                     The Morgan Processing and Distribution Center, in the
                                     New York Performance Cluster, operates 24 hours a day,
                                     seven days a week, with over 4,000 employees and is
                                     authorized two safety specialists. However, only
                                     one specialist was assigned at the time of our visit.14 The
                                     Franklin D. Roosevelt Station, with over 1,000 employees
                                     had no on-site safety specialist assigned and was supported
                                     by a safety specialist on the district staff, which, at the time
                                     of our visit, had one vacant safety position.

                                     According to the New York District Safety Manager and a
                                     New York Metro Area staff safety specialist, the staffing
                                     levels in both performance clusters were the result of past
14
     According to the New York District Safety Manager, vacancies had not been filled as of February 11, 2004.




                                                         11
Summary Report on the Efforts to Prevent Accidents,                                                   HM-AR-04-012
 Injuries, and Illnesses in 12 Performance Clusters



                                   reorganizations, staff consolidations, and the difficulty
                                   experienced in recruiting and retaining qualified safety
                                   professionals in the high-cost metropolitan New York Area.
                                   In addition, these officials said the downsizing environment
                                   within the Postal Service has discouraged hiring.

                                   In the Salt Lake City Performance Cluster, the District
                                   Safety Manager was required to perform full-time duties as
                                   the Injury Compensation Manager,15 in addition to his
                                   Safety Manager duties. According to the Safety Manager,
                                   there is not a position in the performance cluster for an
                                   Injury Compensation Manager because of staffing and
                                   budget constraints. As a result, he told us he spends about
                                   75 percent of his time performing the duties of that position.

                                   Postal Service policy16 states that organizational levels must
                                   plan budgets and provide funds that support effective and
                                   comprehensive safety and health programs and sufficient
                                   personnel to properly implement and administer the
                                   program. Plants with 1,000 or more career employees are
                                   authorized a safety specialist position.17

                                   Additional staffing in these performance clusters could help
                                   to ensure the continued timely implementation of accident
                                   prevention initiatives. We recommended the Long Island
                                   and New York District Managers reassess the adequacy of
                                   safety staffing resources. In addition, we recommended the
                                   Long Island, New York, and Salt Lake City District
                                   Managers fill vacant positions, where appropriate, and/or
                                   consider other alternatives such as collateral duty
                                   assignments to existing staff.

                                   The Manager, Long Island District, stated there was no
                                   disagreement with the overall findings of the audit; however,
                                   there is a moderate difference between management’s
                                   vision for ensuring the effectiveness of prevention initiatives
                                   and the recommendations that were presented.
                                   Specifically, he stated the current level of safety staffing is
                                   adequate. He also said all managers must understand they
                                   are accountable for ensuring employees are provided with a

15
   An Injury Compensation Manager is responsible for developing, coordinating, and monitoring activities related
to the OWCP throughout the performance cluster.
16
   Employee and Labor Relations Manual 17.2, Section 818, February 2003.
17
   Senior Vice President, Human Resources’, letter to Area Human Resource Managers, dated September 16,
2003.




                                                       12
Summary Report on the Efforts to Prevent Accidents,                               HM-AR-04-012
 Injuries, and Illnesses in 12 Performance Clusters



                               safe work environment. Further, he said the role of the
                               safety staff is to provide operations managers with the tools
                               necessary for an effective safety program within their work
                               unit; and local managers must ensure the program is
                               implemented and everyone is held accountable.

                               The Long Island District Manager also stated that for any
                               program to be truly effective, it must be managed daily. He
                               stated it would not be practical to increase safety staff to
                               sufficient levels to accomplish this task, but it would be
                               practical, with only minor adjustments to current operations
                               management staff, to ensure effective implementation of
                               safety programs using the managers who work with
                               employees every day. He stated this process would also
                               reinforce the principle of individual accountability for
                               maintaining a safe work environment.

                               The Manager, New York District, agreed to both
                               recommendations and has initiatives completed or planned
                               addressing the issues in the report. He stated the Safety
                               Specialist position was filled at the Morgan Processing and
                               Distribution Center on April 17, 2004. He also stated the
                               District Safety Specialist position was reposted in the
                               New York Metro Area on May 3, 2004. Further, he stated
                               the Facility Safety Coordinators have been trained and
                               perform annual inspections and evaluations of facilities with
                               less than 100 work years.

                               Salt Lake City Performance Cluster management agreed
                               with our recommendation to provide sufficient personnel and
                               support to properly implement and administer the safety
                               program. They stated an Ad-Hoc Safety manager position
                               will remain in effect until a permanent position is arranged.

                               We believe the actions taken or planned are responsive to
                               the recommendation and should resolve the issues
                               identified in this report.




                                                 13
Summary Report on the Efforts to Prevent Accidents,                                                  HM-AR-04-012
 Injuries, and Illnesses in 12 Performance Clusters




 Opportunity for                   In the Salt Lake City Performance Cluster, temporary
 Improvement –                     supervisors18 were not receiving safety training. According
 Safety Training                   to the District Safety Manager, at any given time, there are
                                   approximately 100 temporary supervisors deployed in
                                   196 customer service facilities within the cluster. He said
                                   formal training is not provided to temporary supervisors
                                   because they do not know in advance when craft
                                   employees will become temporary supervisors so it is
                                   difficult to plan safety training for them.

                                   Postal Service policy19 states that all supervisors must
                                   receive safety and health training in accordance with the
                                   curriculum established by the Safety Performance
                                   Management and Employee Development office. Local
                                   offices, districts, and/or headquarters provide this training.
                                   Policy20 also requires installations to develop methods to
                                   identify program needs for accident prevention and requires
                                   supervisors to implement written programs and action plans,
                                   monitor employees’ safety performance, and prevent
                                   operational safety accidents.

                                   Without the necessary training, temporary supervisors may
                                   not be developing methods to identify safety program needs
                                   for accident prevention. In addition, written programs,
                                   action plans, and the monitoring of employees’ safety
                                   performance may not be sufficient to prevent operational
                                   safety accidents.

                                   We recommended the Salt Lake City District Manager,
                                   require safety training for temporary supervisors.
                                   Management stated that training for temporary supervisors
                                   who serve for long periods is necessary. Management
                                   stated they would fill vacant positions where appropriate,
                                   and/or consider other alternatives such as collateral duty
                                   assignments.

                                   We believe management’s actions taken or planned are
                                   responsive to the recommendation and should resolve the
                                   issues identified.

18
   A temporary supervisor (also referred to as a 204B) is usually a craft employee who has been tasked to
temporarily perform duties of a supervisor.
19
   Employee and Labor Relations Manual 17.2, Section 817.11, February 2003.
20
   Employee and Labor Relations Manual 17.2, Section 821.32, February 2003.




                                                      14
Summary Report on the Efforts to Prevent Accidents,                                    HM-AR-04-012
 Injuries, and Illnesses in 12 Performance Clusters




 Accident Reporting              All 36 facilities we visited in the 12 performance clusters,
 Systems                         accumulated and analyzed accident, injury, and illness data
                                 in the Human Resources Information Systems (HRIS) and
                                 the Risk Management Reporting System (RMRS) for
                                 prevention initiatives. However, headquarters personnel
                                 told us these systems are antiquated and will be replaced.

                                 Safety personnel at 10 of the 12 performance clusters
                                 (Arkansas, Chicago, Greater Indiana, Long Island,
                                 Los Angeles, Mid-America, New York, Oakland, Oklahoma,
                                 and Salt Lake City) told us they used reports generated
                                 from HRIS and RMRS to analyze accident, injury, and
                                 illness numbers and rates in specific categories (slips, trips,
                                 falls, lifts, and illnesses). These reports were used to
                                 determine whether the numbers and rates were greater or
                                 less than expected targets, and to develop safety programs
                                 and action plans to reduce the number of accidents, injuries,
                                 and illnesses.

                                 However, safety personnel at the remaining
                                 two performance clusters (Mississippi and Suncoast)
                                 told us the systems’ data did not always reconcile and
                                 they had to develop and rely on alternative software
                                 applications to fully analyze data for prevention initiatives.
                                 In addition, safety personnel told us they did not have the
                                 proper training needed to create queries and customize
                                 reports from RMRS.

                                 Postal Service policy21 requires the safety offices
                                 responsible for facilities where accidents occurred to enter
                                 accident report information into HRIS. Postal Service
                                 policy22 also states the analysis of accidents and injuries is
                                 vital to effective accident prevention programs, and requires
                                 management to use reports and statistical analyses to
                                 identify and eliminate the principal causes of accidents
                                 and hazardous conditions. Postal Service policy23 further
                                 requires each business area that manages source data
                                 to identify an individual or organization responsible for
                                 developing standards and usage rules to ensure the
                                 integrity of data on accidents. The policy also states the
                                 standards and rules must ensure that data is accurate,
21
   Employee and Labor Relations Manual 17.2, Section 821.123, February 2003.
22
   Employee and Labor Relations Manual 17.2, Section 821.31, February 2003.
23
   Management Instruction 860-2003-2, Administrative Support, March 6, 2003.




                                                    15
Summary Report on the Efforts to Prevent Accidents,                                                   HM-AR-04-012
 Injuries, and Illnesses in 12 Performance Clusters



                                   available, usable, and consistent with the data location and
                                   other business considerations.

                                   The Manager, Suncoast District, stated that throughout the
                                   year, the safety staff prepared analyses based on current
                                   accident data that outlined trends. He also said that plans,
                                   programs, and procedures were implemented depending on
                                   how accidents and injuries were trending. The Manager
                                   also stated the performance cluster will continue to establish
                                   action plans as needed, monitor for trends and results, and
                                   implement necessary activities.

 Corrective Actions                The Postal Service has developed the Injury Compensation
 Planned                           Performance Analysis System and management told us
                                   they will began replacing certain components of the HRIS
                                   and RMRS in calendar year 2005. In the interim,
                                   headquarters’ Safety Performance Management began
                                   training June 29, 2004, for safety personnel to run queries
                                   and create reports from RMRS using data from HRIS. This
                                   action is responsive and should correct the issue identified.

 Most Reporting                    In all 36 facilities we visited in the 12 performance clusters,
 Processes Were                    the reporting processes used within the various functional
 Adequate                          areas facilitated accurate reporting of accidents, injuries,
                                   and illnesses. However, several facilities in the Mississippi
                                   Performance Cluster can improve their completion of
                                   accident report forms.

                                   We used a statistical sample to project the accuracy of the
                                   12 performance clusters’ data in HRIS, and the
                                   completeness of accident report forms24 for FYs 2002 and
                                   2003.

                                   For 8 of the 12 performance clusters (Arkansas, Greater
                                   Indiana, Los Angeles, Mid-America, Mississippi, Oakland,
                                   Oklahoma, and Suncoast), we projected that almost all of
                                   the information on the accident report forms were contained
                                   in the system, and almost all of the accident report forms
                                   were complete.




24
   Postal Service Form 1769, Accident Report, was used to report accidents. The instructions on the form
required it to be completed for all accidents regardless of the extent of injury or amount of damage. This
included all first aid injury cases both reportable and nonreportable.




                                                       16
Summary Report on the Efforts to Prevent Accidents,                                                  HM-AR-04-012
 Injuries, and Illnesses in 12 Performance Clusters




                                   For the remaining four performance clusters (Chicago, Long
                                   Island, New York, and Salt Lake City), our samples did not
                                   support a statistical projection; however, our review and
                                   tests indicated the data in HRIS was reasonably reliable,
                                   and the forms were complete.

                                   Postal Service policy25 requires supervisors to fully
                                   complete the accident report by including preventive action
                                   codes26 and descriptions of accident prevention efforts. The
                                   policy also requires managers to review each accident
                                   report for accuracy and conduct a follow-up assessment to
                                   ensure that action is taken to prevent similar occurrences.
                                   In addition, supervisors and managers are required to sign
                                   the report as proof they had reviewed it. Policy27 also
                                   requires that the safety officer enter the accident report
                                   information into HRIS.

                                   We believe the accident reporting process was accurate
                                   because supervisors and managers had received the safety
                                   training required by the performance clusters and had
                                   communicated the accident reporting process to employees
                                   through safety talks and posters.

                                   The Manager, Chicago District, stated there were no
                                   disagreements with the audit report relative to the findings.

                                   The Vice President, Great Lakes Area, stated it would be
                                   useful if the report contained sufficient information for the
                                   audited offices to investigate and correct the deficiencies
                                   identified. The Acting Security Specialist, Greater Indiana
                                   District Safety Office, also stated they would like clarification
                                   of the findings so that future errors can be corrected. For
                                   example, they wanted to know what accidents were missing
                                   from the database.

                                   We agreed that additional clarification would allow
                                   performance clusters to correct future errors. However,
                                   because the information includes Social Security Numbers
                                   and employee names, we could not include it in our report,
                                   with its widespread distribution. However, we provided

25
   Employee and Labor Relations Manual 17.2, Section 821.132, February 2003.
26
   Preventive action codes described the action taken to eliminate or reduce the accident cause(s) and prevent
similar accidents.
27
   Employee and Labor Relations Manual 17.2, Section 821.12, February 2003.




                                                      17
Summary Report on the Efforts to Prevent Accidents,                                 HM-AR-04-012
 Injuries, and Illnesses in 12 Performance Clusters



                               additional clarification to the Greater Indiana Performance
                               Cluster on July 6, 2004.

                               The Manager, Oakland District, agreed with our findings,
                               which resulted in the district reviewing its existing reporting
                               protocols and standard operating procedures in order to
                               improve and reduce those percentages. Management also
                               stated the new processes in place have resulted in fewer
                               discrepancies between the information on the accident
                               report forms and the HRIS.

                               The Vice President, Southwest Area, stated they monitor
                               accurate and timely accident reporting through program
                               evaluations and leadership business reviews. He also
                               stated that both performance clusters maintain high levels of
                               commitment in accurate and timely accident reporting, with
                               a better than 97 percent accuracy rate and a 95 percent
                               timeliness rate.

 Opportunity for               An opportunity for improvement existed in several
 Improvement –                 Mississippi facilities that reported their accidents to the
 Accident Report Forms         Jackson Safety Office. Specifically, some supervisors did
                               not report the preventive action codes and descriptions on
                               the accident report forms, and some managers did not
                               ensure the forms were accurate and complete. This was
                               required by policy and supported whether accidents had
                               been investigated and the appropriate prevention initiatives
                               had been identified. Employee safety may have been
                               compromised if appropriate corrective actions and
                               prevention initiatives were not implemented.

                               According to the Mississippi District Safety Manager,
                               supervisors did not always complete the accident report
                               forms for a number of reasons. For example, she said
                               some supervisors could not determine which preventive
                               action codes or actions were applicable.

                               We recommended the Mississippi District Manager, instruct
                               the District Safety Managers to provide the necessary
                               training and/or instructions to managers and supervisors to
                               ensure the completion and review of accident forms.

                               The District Manager agreed with our recommendation and
                               provided actions completed and planned that are
                               responsive and should correct the issues identified.



                                                 18
Summary Report on the Efforts to Prevent Accidents,                                           HM-AR-04-012
 Injuries, and Illnesses in 12 Performance Clusters




 Best Practices                 In addition to the best practices identified in the
                                12 performance clusters, we also identified best practices
                                used by seven28 private companies. Some of the best
                                practices we identified are similar to those already used
                                postal-wide. (See Appendix G for profiles of the seven
                                companies.)

 Measuring for                  We identified best practices used by four of seven private
 Effectiveness                  companies that could help the performance clusters
                                measure the effectiveness of accident prevention initiatives.
                                The best practices we identified fell into two categories:

                                  •   Scorecard or scoring system.
                                  •   Trend analysis or analysis by type of accident.

                                Scorecard System – One company relied on a web-based
                                system called the Environment, Health, and Safety
                                Deployment Plan and Scorecard System. The system was
                                launched in April 2002 and tracked monthly and year-to-
                                date progress on every work site’s initiatives and action
                                items using a color-coded system to indicate whether a task
                                was on schedule (green), behind schedule but feasible
                                (yellow), or unable to be achieved (red). The system
                                calculated a visual scorecard based on the site’s entries,
                                and users could view progress at the division, work site, or
                                individual project level. Projects coded yellow or red alerted
                                company officials that a site required assistance to get back
                                on target.

                                According to the company’s 2002 Environment, Health, and
                                Safety Progress Report, this system allowed the company
                                to identify and close progress gaps much faster than ever
28
  We benchmarked with seven private companies. The remaining three companies provided examples of how
they measured the effectiveness of their safety programs. In this report, we address how four companies
measured the effectiveness of accident prevention initiatives (and not safety programs).




                                                   19
Summary Report on the Efforts to Prevent Accidents,                                                  HM-AR-04-012
 Injuries, and Illnesses in 12 Performance Clusters



                                  before, and helped to ensure each site had a greater
                                  chance of meeting its annual environment, health, and
                                  safety goals. The company’s progress report also stated
                                  this system ultimately reduced the risk of incidents.29 The
                                  report did not indicate, however, how much of a reduction
                                  had occurred.

                                   The Postal Service Headquarters Manager, Safety
                                   Performance Management, stated the Postal Service has
                                   implemented a Pay for Performance System and provides
                                   a scorecard every month to the field at the area,
                                   performance cluster, and facility level. The scorecard
                                   contains a number of safety indicators, such as OSHA
                                   injuries and illnesses and motor vehicle performance rates.
                                   The rates are compared to the rates for the same period
                                   last year.

                                  Trend Analysis – Another company conducted a trend
                                  analysis of accidents that occurred over a specified period
                                  to determine the reductions that occurred in the various
                                  types of accidents.

                                  The Manager, Safety Performance Management, stated the
                                  Postal Service Safety Performance Management group
                                  tracks overall performance every year compared to the
                                  baseline year (FY 2001). In addition, trend line charts are
                                  provided to the areas monthly, for the eight targeted
                                  reduction areas to compare current performance to same
                                  period last year. In addition, each district can see their
                                  performance for each of the eight indicators on the safety
                                  toolkit at the close of each month.




29
   The company’s progress report defined an incident as any unpredicted event with capacity to harm human
health, the environment, or physical property. According to the company representative, the company collected
information on incidents that resulted in damage, injuries, and illnesses as well as incidents that could have
resulted in these consequences, which it referred to as "injury-free events" or "near-misses.”




                                                      20
Summary Report on the Efforts to Prevent Accidents,                                                                           HM-AR-04-012
 Injuries, and Illnesses in 12 Performance Clusters




 Initiatives Reduced                All seven companies said safety programs and initiatives
 Accident Rates                     reduced the rate of accidents and injuries. For example,
                                    one company representative said there was an 88 percent
                                    improvement in the company’s incident and injury rate30
                                    over the past 15 years, and a 72 percent improvement in
                                    the last 10 years. As shown in the chart below, the
                                    company’s 2002 total incident rate (TIR) was 1.8, which was
                                    an 18.18 percent improvement from 2001.


                                     Table 3. Company’s 1998 – 2004 Total Incident Rate




                                                                                                                                 TIR
                                                              3
                                                                          2.7          2.9                                       % CHANGE
                                                                                                      2.3
                                                            2.5                                                   2.2
                                      Total Incident Rate




                                                                                                                              1.8
                                                              2

                                                            1.5

                                                              1

                                                            0.5
                                                                          0            7.41%            -20.69%                     -18.18%
                                                                                                                     -4.35%
                                                              0
                                                                   1998         1999           2000           2001        2002
                                                            -0.5
                                                                                         Year

                                    Source: Company’s 2002-2003 Sustainability Report. Chart included data from
                                    company’s facilities worldwide. Data prior to 2001 was from United States facilities
                                    only.


 Frequency of                       When asked how frequently they measured the
 Measuring                          effectiveness of their safety programs and initiatives,
 Effectiveness                      one company representative stated there was no specific
                                    timeframe. Representatives for the remaining
                                    six companies responded their frequency of measuring was
                                    either continuously, ongoing, monthly, and quarterly at the
                                    corporate level, weekly at the site level, formally once a
                                    year, or informally several times a year.

30
  This company defined an incident and an injury as those that required medical treatment and was OSHA
reportable. However, the company also included first aid injuries in their incident rate, which were not reported to
OSHA.




                                                                           21
Summary Report on the Efforts to Prevent Accidents,                                HM-AR-04-012
 Injuries, and Illnesses in 12 Performance Clusters




 Headquarters’                 In July 2004, the Postal Service and one of its major unions,
 Initiatives                   the APWU, entered into an agreement to promote jointly,
                               the OSHA VPP. The process will be implemented through
                               the national, area, and local Joint Labor-Management
                               Safety Committees, and is designed to accomplish the
                               following goals at participating worksites:

                                   •   Improve safety and health at the worksite so the
                                       Postal Service and APWU can work together to
                                       reduce accidents/injuries.

                                   •   Train Postal Service worksite managers, supervisors,
                                       APWU representatives, and the local Joint Labor-
                                       Management Safety and Health Committee to ensure
                                       comprehension of the OSHA VPP process.

                                   •   Reduce the number and severity of job-related
                                       injuries and illnesses.

                                   •   Eliminate or reduce unsafe working conditions and
                                       practices.

                               The Manager, Safety Performance Management, stated the
                               Postal Service is also currently working with the NALC in
                               piloting an ergonomic risk reduction process for letter
                               carriers in Albany, New York.

                               Further, at the national level, the Postal Service and the
                               NALC have formed a task force, which is focused on
                               reducing injuries specific to letter carriers. The task force
                               implemented a pilot in the Eastern Area in August 2003, and
                               will expand the pilot to the Pacific Area in September 2004.
                               The process utilizes the Joint Safety and Health
                               Committees to focus on reducing injuries specific to letter
                               carriers.

                               We applaud these efforts because we believe it is a
                               significant step in improving the safety and health of
                               employees and customers at facilities nationwide.




                                                 22
Summary Report on the Efforts to Prevent Accidents,                               HM-AR-04-012
 Injuries, and Illnesses in 12 Performance Clusters




 Management’s                  Management stated they had no disagreements with the
 Comments                      draft version of this report. Management also stated it is
                               their opinion that the audit team delivered a balanced report
                               and they appreciate the cooperation and courtesies that
                               were afforded to their field and headquarters’ managers and
                               staffs by the audit team.




                                                 23
Summary Report on the Efforts to Prevent Accidents,             HM-AR-04-012
 Injuries, and Illnesses in 12 Performance Clusters



             APPENDIX A. ABBREVIATIONS AND ACRONYMS
APWU            American Postal Workers Union
FY              Fiscal Year
OIG             Office of Inspector General
HRIS            Human Resources Information Systems
NALC            National Association of Letter Carriers
OSHA            Occupational Safety and Health Administration
OWCP            Office of Workers’ Compensation Programs
PEG             Program Evaluation Guide
RMRS            Risk Management Reporting System
TIR             Total Incident Rate
VPP             Voluntary Protection Programs
WebEIS          Web-Enabled Enterprise Information System




                                                 24
Summary Report on the Efforts to Prevent Accidents,                           HM-AR-04-012
 Injuries, and Illnesses in 12 Performance Clusters



                                        APPENDIX B

      LIST OF AUDIT REPORTS FOR SIX AREAS OF OPERATION
Efforts to Prevent Accidents, Injuries, and Illnesses in the Mississippi and Suncoast
Performance Clusters – Southeast Area (Report Number HM-AR-04-006, dated
April 29, 2004).

Efforts to Prevent Accidents, Injuries, and Illnesses in the Arkansas and Oklahoma
Performance Clusters – Southwest Area (Report Number HM-AR-04-007, dated
June 28, 2004).

Efforts to Prevent Accidents, Injuries, and Illnesses in the Long Island and New York
Performance Clusters – New York Metro Area (Report Number HM-AR-04-008,
dated July 7, 2004).

Efforts to Prevent Accidents, Injuries, and Illnesses in the Chicago and Greater
Indiana Performance Clusters – Great Lakes Area (Report Number HM-AR-04-009,
dated July 7, 2004).

Efforts to Prevent Accidents, Injuries, and Illnesses in the Mid-America and Salt
Lake City Performance Clusters – Western Area (Report Number HM-AR-04-0010,
dated July 20, 2004).

Efforts to Prevent Accidents, Injuries, and Illnesses in the Los Angeles and Oakland
Performance Clusters – Pacific Area (Report Number HM-AR-04-0011, dated
July 26, 2004).




                                                 25
          Summary Report on the Efforts to Prevent Accidents,                                                    HM-AR-04-012
           Injuries, and Illnesses in 12 Performance Clusters



                                                        APPENDIX C

                    GENERAL FINDINGS IN 12 PERFORMANCE CLUSTERS
                                      Prevention         Effectiveness
                                   Initiatives Have      of Prevention        Timeliness of          Accident          Reporting
                                   the Potential to     Initiatives Was        Prevention            Reporting         Processes
  Area of         Performance       Become Best              Known/          Initiatives Was       Systems Were          Were
 Operation          Cluster            Practices           Unknown          Known/Unknown           Adequate31         Adequate
Great             Chicago
                                          Yes             Unknown32            Unknown33                 Yes               Yes
Lakes
Great             Greater
                                          Yes             Unknown33            Unknown33                 Yes               Yes
Lakes             Indiana
New York          Long Island
                                          Yes             Unknown33               Known                  Yes               Yes
Metro
New York          New York
                                          Yes               Known                  N/A33                 Yes               Yes
Metro
Pacific           Los Angeles
                                          Yes             Unknown33            Unknown33                 Yes               Yes
Pacific           Oakland
                                          Yes             Unknown33            Unknown33                 Yes               Yes
Southeast         Mississippi
                                          Yes             Unknown33            Unknown33                Yes34              Yes
Southeast         Suncoast
                                          Yes             Unknown33            Unknown33                Yes35              Yes
Southwest         Arkansas
                                          Yes               Known                 Known                  Yes               Yes
Southwest         Oklahoma
                                          Yes               Known                 Known                  Yes               Yes
Western           Mid-America
                                          Yes             Unknown33            Unknown33                 Yes               Yes
Western           Salt Lake
                                          Yes             Unknown33            Unknown33                 Yes               Yes
                  City




          31
             We evaluated the accident reporting systems to determine if data was accumulated and analyzed for
          prevention initiatives.
          32
             We could not determine whether the prevention initiatives resulted in the reduced number of accidents,
          injuries, and illnesses and/or whether initiatives were implemented in a timely manner because the safety tool kit
          did not allow safety personnel to track and monitor specific prevention initiatives and/or document when
          initiatives were implemented.
          33
             We did not evaluate the timeliness of prevention initiatives in the New York Performance Cluster because new
          initiatives were not in place during our audit scope.
          34
             Although the Mississippi and Suncoast Performance Clusters were accumulating and analyzing accident,
          injury, and illness data for prevention initiatives, HRIS and RMRS were inconsistent and did not provide an
          efficient method of analyzing data for prevention initiatives.




                                                                 26
Summary Report on the Efforts to Prevent Accidents,                                                    HM-AR-04-012
 Injuries, and Illnesses in 12 Performance Clusters



                   APPENDIX D. SCOPE AND METHODOLOGY
Our 12 performance cluster selections were based on the lowest and highest combined average
OSHA injury and illness rates and average accident frequency rates from FY 200235 through
accounting period36 7 in FY 2003.37 The FYs 2002 and 2003 average total OSHA injury and illness
rates and accident frequency rates for the 12 performance clusters are shown in the table below.

                                            Average Total OSHA            Average Total
                       Performance           Injury and Illness             Accident
                          Cluster            Frequency Rates            Frequency Rates*
                     Arkansas                                 5.70                 14.50
                     Chicago                                  6.15                 10.51
                     Greater Indiana                          8.71                 21.12
                     Long Island                              9.39                 17.11
                     Los Angeles                              5.70                 11.10
                     Mid-America                              5.40                 15.80
                     Mississippi                              4.33                 11.86
                     New York                                 4.23                   9.69
                     Oakland                                  9.30                 20.40
                     Oklahoma                                  9.0                 18.90
                     Salt Lake City                           8.80                 23.80
                     Suncoast                                 8.30                 18.73
                    *This column indicates the average number of employees out of every
                     100 employees that had an accident during a specific period.

We selected three facilities at each performance cluster based on size and type (for example, airport
mail center, processing and distribution center, post office, and station). See Appendix G for a list of
the 36 facilities we visited.

To accomplish our objectives, we reviewed applicable federal laws and Postal Service and OSHA
policies and procedures related to accident and injury prevention.

To verify whether the number of accidents and injuries was declining as a result of corrections to
unsafe working conditions and practices, we obtained data by accident category and code (slips, trips
and falls, lifting, dog bites, repetitive motion, striking against, struck by objects, and motor vehicles)
for each performance cluster visited. In addition, we obtained accident numbers and accident
frequency rate data from the Postal Service WebEIS for FYs 2002 and 2003. We also obtained
from RMRS the accident frequency rates, and OSHA injury and illness for FY 2002 and the
first eight accounting periods in FY 2003.38 We reviewed both WebEIS and RMRS data to determine
whether downward trends indicated a reduction in accidents, injuries, and illnesses.

To determine whether corrective actions and prevention initiatives were made in a timely manner to
reduce the number of accidents, injuries, and illnesses, we reviewed Postal Service policy to learn
whether a national or other standard policy existed that addressed how unsafe working conditions

35
   The FY 2002 period for the Postal Service began September 8, 2001, and ended September 6, 2002.
36
   An accounting period is defined as a four-week period that forms one-thirteenth of the Postal Service
fiscal year.
37
   The first seven accounting periods for FY 2003 began September 7, 2002, and ended March 21, 2003. The
FY 2003 period for the Postal Service began September 7, 2002, and ended September 5, 2003. However, the
Postal Service transitioned its financial reporting system from accounting periods to monthly reporting periods on
October 1, 2003. The transition period began September 6, 2003, and ended September 30, 2003.
38
   The first eight accounting periods for FY 2003, began September 7, 2002, and ended April 18, 2003.




                                                       27
Summary Report on the Efforts to Prevent Accidents,                                                    HM-AR-04-012
 Injuries, and Illnesses in 12 Performance Clusters


and practices should be corrected in a timely manner. We reviewed documentation for corrective
actions and prevention initiatives implemented from FY 2002, through the following accounting
periods in FY 2003 in 11 of the 12 performance clusters:

           •   Accounting period 8 for Chicago and Greater Indiana.
           •   Accounting period 1139 for Los Angeles, Mississippi, Oakland, Oklahoma, and Suncoast.
           •   Accounting period 1240 for Long Island and Salt Lake City.
           •   Accounting period 13 (the entire FY 2003) for Arkansas and Mid-America.

Timeliness of preventive initiatives could not be evaluated at the New York Performance Cluster
because new initiatives were not implemented during our audit scope.

To determine whether accident, injury, and illness data were accumulated and analyzed for
prevention initiatives, we analyzed accidents, injuries, training documents, and workplace inspection
data for sources and locations of accidents and jobs with high occurrences of accidents. We also
analyzed accident and injury trends to determine whether a pattern of accidents with common causes
could be identified in order to prevent future occurrences. We reviewed action plans and PEG data
that were accumulated and analyzed for prevention initiatives during FYs 2002 and 2003.

To determine whether processes used within the various functional areas facilitated accurate
reporting of accidents, injuries and illnesses, we interviewed human resources, safety and health
program personnel, and management at the area, performance cluster, and facility levels. We
obtained information related to accident prevention such as resources, training, accident and hazard
reporting, safety talks, and internal controls. In addition, we selected two statistical samples of
accidents, injuries, and illnesses entered into HRIS for FY 2002 through the following accounting
periods for FY 2003 in the 12 performance clusters:

           •   Accounting period 8 for Long Island, Los Angeles, Mississippi, New York, Oakland, and
               Suncoast.
           •   Accounting period 11 for Oklahoma.
           •   Accounting period 12 for Salt Lake City.
           •   Accounting period 13 (the entire FY 2003) for Arkansas, Chicago, Greater Indiana, and
               Mid-America.

We reviewed a sample of accident report forms for accuracy and completeness, and reviewed a
sample of accidents from HRIS to determine whether the information on the accident reports was
entered accurately.

Best Practices Scope and Methodology

To identify best practices to help the Postal Service improve its safety program, we reviewed a report
published by the American Productivity and Quality Center on benchmarking. We conducted
research and identified 12 private companies to include in our review. Our research included
information obtained from the Internet, recommendations from a congressional committee, and
discussions with the Postal Service Headquarters managers of Health and Resource Management,
and OSHA Coordination. In selecting the 12 companies, we obtained information such as:

       •   Employee population and type of industry.
       •   Number of vehicles in their fleet.
       •   Safety program initiatives and accomplishments.
       •   Location of headquarters.
39
     The first 11 accounting periods for FY 2003, began September 7, 2002, and ended July 11, 2003.
40
     The first 12 accounting periods for FY 2003, began September 7, 2002, and ended August 8, 2003.




                                                       28
Summary Report on the Efforts to Prevent Accidents,                                          HM-AR-04-012
 Injuries, and Illnesses in 12 Performance Clusters




Only 7 of the 12 companies participated in the review. Of the five companies that did not participate,
three did not respond to our request to partner, and the remaining two were unable to participate.

Inherent Bias in Self-Rating and Self-Reporting

To obtain information from the seven companies, we administered a structured questionnaire. We
acknowledge that questionnaires are subject to bias that could affect results. Bias could affect both
response rates and the way respondents answer particular questions. We did not assess the
magnitude of the effect of bias, if any, on our questionnaire results. One possible source of bias in
our questionnaire was inherent in all self-ratings and self-reports. Bias inherent in self-rating and
self reporting may impact results because integrity of data depends upon respondents providing
honest and accurate answers. The results of our work will be affected by how accurately the
respondents reported on their companies’ safety programs and the effectiveness of their initiatives.

This review was conducted from May 2003 through September 2004 in accordance with generally
accepted government auditing standards and included such tests of internal controls as were
considered necessary under the circumstances. We discussed our conclusions and observations
with appropriate management officials and included their comments, where appropriate. We believe
the computer-generated data was sufficiently reliable to support the opinions and conclusions in this
report.




                                                  29
Summary Report on the Efforts to Prevent Accidents,                                             HM-AR-04-012
 Injuries, and Illnesses in 12 Performance Clusters




                                           APPENDIX E

     PREVENTION INITIATIVES IN 12 PERFORMANCE CLUSTERS
             LOCATED IN 6 AREAS OF OPERATION
                                         Great Lakes Area

Chicago Performance Cluster
• Corrective Opportunity Patrol Supervisors Program to observe and reward drivers who were
   performing their duties in a safe manner.
• Employee Involvement Program to allow employees who had accidents to assist in giving training
   and safety talks on proper safety procedures.
• One-on-One Safety Reviews between employees and their supervisors to help employees
   perform their jobs safely, and discuss the relationship of job performance to safety expectations.

Greater Indiana Performance Cluster
• The Dog Bite Initiative to bring awareness to the community to help reduce dog bites. This
   initiative is a partnership between the performance cluster and local animal control.
• The Safety Enhancement Awareness Program, which is a three-hour course held by the safety
   staff, to train employees with two or more preventable accidents.
• Driver Observations program for supervisors to perform two observations per year, per driver,
   and then discuss observations with the drivers.

                                       New York Metro Area
Long Island and New York Performance Clusters
• Accident review committees that (1) evaluated corrective actions taken on accidents and the
   timeliness and quality of accident reporting, and (2) identified systemic causes and
   corrective/prevention actions.

Long Island Performance Cluster
• One facility, the Mid-Island Processing and Distribution Center, was a test facility for the Postal
   Service’s Ergonomic Risk Reduction Program. This program may help reduce mail handling and
   lifting injuries.

                                             Pacific Area

•   Action plan titled “Line of Sight” that identifies roles and responsibilities up and down the chain of
    command, which facilitates accurate reporting of accidents.

Los Angeles Performance Cluster
• Standard operating procedure requiring the District Manager be notified immediately (at any time)
   of all accidents. The District Manager’s immediate awareness of accidents helped to ensure that
   supervisors timely prepare accident reports and conduct accident investigations.

Oakland Performance Cluster
• Safety Compliance Office whose function is to ensure accident reporting processes are followed.
   The office provided a central source for guidance and instruction to all those involved in accident
   reporting.




                                                    30
Summary Report on the Efforts to Prevent Accidents,                                           HM-AR-04-012
 Injuries, and Illnesses in 12 Performance Clusters


•   Mapping software to identify problem sites for motor vehicle accidents by tracking accident
    locations and times. This helped management make decisions affecting route and transportation
    changes.
                                          Southeast Area

Mississippi Performance Cluster
• Strobe Light Program to reduce motor vehicle accidents in rural areas by installing strobe lights
   on top of all rural carrier vehicles.
• Power-lift classes in facilities with the highest number of lifting accidents to provide training on
   proper lifting procedures.
• SAF-IT Program to reduce the number of accident repeaters by providing training to employees
   who had two or more accidents.

Suncoast Performance Cluster
• Safety Captain Program to monitor the safety of employees throughout each facility. Rotational
   assignments were made every six months, giving more employees training opportunities and
   elevating their safety awareness.
• Facility Improvement boxes for employees to anonymously submit information directly to the
   Plant Manager. As a result, safety concerns were discussed regularly, management decisions
   were made concerning actions needed to address safety concerns, and proposed safety
   improvements were forwarded to department heads for action.

                                         Southwest Area

Arkansas Performance Cluster
• Strobe lights and orange warning sticks on vehicles to reduce motor vehicle accidents.
• Safety Captain Handbook that contains guidelines and instructions for safety captains. As a
   result, safety captains have a clearer understanding of their roles and responsibilities.

Oklahoma Performance Cluster
• “Shur Steppers” to prevent slips, trips, and falls due to icy conditions. “Shur Steppers” are rubber
   shoe covers with cleats worn by letter carriers. Safety personnel said in FY 2003, slips, trips, and
   falls due to icy conditions did not happen to personnel who were wearing “Shur Steppers.”
• Driver’s training course for new employees and drivers who had previous accidents. This course
   is mobile and given in many locations throughout the performance cluster. The course consisted
   of actual driving conditions and hazards.

                                           Western Area

Mid-America Performance Cluster
• Dog bite policy that stated the existence of a potential dog bite danger could result in the
   curtailment of deliveries to a group of customers (the whole block if applicable) until the danger
   was removed.
• “Stabilicers” to prevent slips, trips, and falls due to icy conditions. “Stabilicers” are rubber shoe
   covers with cleats, worn by letter carriers. Safety personnel advised this product was effective in
   preventing slips, trips, and falls due to icy conditions.

Salt Lake City Performance Cluster
• Driver Observation Tracking Tool to identify infractions made by drivers, and to help the Safety
    Office target the type of training needed for employees.
• Binder called “Safety for All Seasons” given to those stations where safety staff had not visited.
    The binder provides uniform guidance on safety issues and contains information regarding
    accident prevention awareness projects.



                                                  31
Summary Report on the Efforts to Prevent Accidents,                                HM-AR-04-012
 Injuries, and Illnesses in 12 Performance Clusters



                                        APPENDIX F

  OSHA INJURY AND ILLNESS AND MOTOR VEHICLE ACCIDENT
       NUMBERS AND AVERAGE FREQUENCY RATES IN
    12 PERFORMANCE CLUSTERS FOR FYS 2002 AND 2003
     Area of                                                         Average Frequency
    Operation        Performance Cluster             Numbers                Rates
                                                FY 2002  FY 2003    FY 2002     FY 2003
                 Chicago
                   OSHA Injury and Illness             732    611      6.56         5.73
   Great           Motor Vehicle                       273    203     23.71        23.17
   Lakes         Greater Indiana
                   OSHA Injury and Illness            1,198   964      9.48         7.94
                   Motor Vehicle                        557   522     11.71        10.29
                 Long Island
                   OSHA Injury and Illness             780    924      8.44        10.42
   New York        Motor Vehicle                       228    259     11.64        13.84
   Metro         New York
                   OSHA Injury and Illness             590    542      4.14         4.06
                   Motor Vehicle                       293    263     38.95        33.97
                 Los Angeles
                   OSHA Injury and Illness             529    428      5.88         4.95
   Pacific         Motor Vehicle                       160    159     16.15        15.98
                 Oakland
                   OSHA Injury and Illness             830    593      9.04         6.73
                   Motor Vehicle                       271    256     15.60        15.69
                 Mississippi
                   OSHA Injury and Illness             209    207       4.19         4.30
   Southeast       Motor Vehicle                       176    224       5.12         6.38
                 Suncoast
                   OSHA Injury and Illness             927    852      8.15         7.76
                   Motor Vehicle                       488    465     13.43        12.52
                 Arkansas
                   OSHA Injury and Illness             378    282       6.57         5.11
   Southwest       Motor Vehicle                       221    194       7.24         6.39
                 Oklahoma
                   OSHA Injury and Illness             700    599       9.23         8.23
                   Motor Vehicle                       265    214       6.89         5.71
                 Mid-America
                   OSHA Injury and Illness             598    518       5.64         5.07
   Western         Motor Vehicle                       308    306       7.17         6.95
                 Salt Lake City
                   OSHA Injury and Illness             385    301      9.47         7.59
                   Motor Vehicle                       243    190     22.85        17.52

Source: Postal Service WebEIS.




                                                 32
          Summary Report on the Efforts to Prevent Accidents,                                         HM-AR-04-012
           Injuries, and Illnesses in 12 Performance Clusters



                         APPENDIX G. LIST OF 36 FACILITIES VISITED
  Area of Operation          Performance Cluster                               Facilities Visited
Great Lakes                 Chicago                       •     Cardiss Collins Processing and Distribution Center
                                                          •     Fort Dearborn Station
                                                          •     O’Hare Airport Mail Center
Great Lakes                 Greater Indiana               •     Bacon Station
                                                          •     Indianapolis Airport Mail Center
                                                          •     Indianapolis Processing and Distribution Center
New York Metro              Long Island                   •     Huntington Station
                                                          •     Long Island Priority Mail Processing Center
                                                          •     Mid-Island Processing and Distribution Center
New York Metro              New York                      •     Franklin D. Roosevelt Station
                                                          •     Grand Central Station
                                                          •     Morgan Processing and Distribution Center
Pacific                     Los Angeles                   •     Bicentennial Station
                                                          •     Los Angeles Airport Mail Center
                                                          •     Los Angeles Processing and Distribution Center
Pacific                     Oakland                       •     Oakland Main Post Office
                                                          •     Oakland Processing and Distribution Center
                                                          •     San Francisco Bulk Mail Center
Southeast                   Mississippi                   •     Jackson Main Post Office
                                                          •     Jackson Processing and Distribution Center
                                                          •     LeFleur Post Office
Southeast                   Suncoast                      •     Lakeland Main Post Office
                                                          •     Lakeland Processing and Distribution Center
                                                          •     Tampa Processing and Distribution Center
Southwest                   Arkansas                      •     Little Rock Main Post Office
                                                          •     Little Rock Processing and Distribution Center
                                                          •     North Little Rock Main Post Office
Southwest                   Oklahoma                      •     Norman Post Office
                                                          •     Oklahoma City Processing and Distribution Center
                                                          •     Penn Station
Western                     Mid-America                   •     Airport Mail Center
                                                          •     Independence, Missouri Post Office
                                                          •     Kansas City, Missouri Processing and Distribution
                                                                Center
Western                     Salt Lake City                •     Auxiliary Service Facility
                                                          •     Salt Lake City Processing and Distribution Center
                                                          •     West Valley Branch




                                                           33
           Summary Report on the Efforts to Prevent Accidents,                                                                  HM-AR-04-012
            Injuries, and Illnesses in 12 Performance Clusters




                                            APPENDIX H. PROFILES OF POSTAL SERVICE AND PRIVATE
                                                      COMPANIES AS OF DECEMBER 2003

                                                                                                                                                                      Significant Accomplishments
                                                                                  Number of                                                                          (OSHA Injury and Illness Rates
 Company Name                      Company Safety Philosophy                                                               Company Snapshot
                                                                                   Vehicles                                                                           Decreased Between 1998 and
                                                                                                                                                                                  2002)
Postal Service        Managers must demonstrate commitment to providing
                      safe and healthful working conditions in all Postal                           Industry: Communications
                      Service-owned and leased installations, become involved
                      in day-to-day safety performance, and be held
                      accountable for safety performance and compliance with                                                              Headquarters:            Rates decreased 29.8 percent --
                                                                                                                                                                                     1
                      OSHA standards and regulations.                                    209,297 Employees: 826,955                       Washington, DC           from 7.18 to 5.04

                      Operate worldwide in a safe, responsible manner that                          Industry: Aluminum                    Headquarters:            Rates decreased 43.3 percent --
                      respects the environment and the health of their
Alcoa                                                                           No data available                                         Pittsburgh, Pennsylvania from 7.35 to 4.17
                      employees, customers, and communities.                                        Employees: 127,000

Blaine Construction                                                                              Industry: Construction                   Headquarters:            Rates decreased 80.6 percent --
Corporation         Education and accountability. Focus on being proactive.                  120 Employees: 500                           Knoxville, Tennessee     from 9.4 to 1.8
                                                                                                 Industry: Science, Technology, and
                      Safety is one of their core values. Holds managers and                     Rubber                                   Headquarters:            Rates decreased 22.1 percent --
DuPont                supervisors accountable for safety.                                  6,200 Employees: 70,000                        Wilmington, Delaware     from 1.99 to 1.55
                      Strives to ensure all facilities are held to the same
                      standard of 100 percent compliance in environmental                        Industry: Technology                     Headquarters:            Rates decreased 58.6 percent --
General Electric      health and safety.                                        Less than 10,000 Employees: 700,000                       Fairfield, Connecticut   from 3.91 to 1.62

                                                                                                    Industry: Paper, including building
                    Encourages employee participation in safety teams,
                                                                                                    materials
                    behavior safety steering committees, ergonomic teams,                                                                 Headquarters:            Rates decreased 33.7 percent --
International Paper and as department safety advocates.                                    4,000 Employees: 91,000                        Stamford, Connecticut    from 2.7 to 1.8

                                                                                                  Industry: Technical (Defense Contractor) Headquarters:           Rates decreased 60.7 percent -- from
Raytheon              Focus on protecting employees, not saving money.          No data available Employees: 76,000                        Waltham, Washington     3.1 to 1.2

                      Proactive approach. Preventing accidents through                           Industry: Office Equipment               Headquarters:            Rates decreased 35.7 percent -- from
Xerox                 behavior modification before an accident occurs.                     6,014 Employees: 62,744                        Stamford, Connecticut    1.85 to 1.2




           1
               FY 1998 to 2001 information was not available at the time of our review. Thus, we included the rates for FY 2002 and 2003.




                                                                                                       34
Summary Report on the Efforts to Prevent Accidents,       HM-AR-04-012
 Injuries, and Illnesses in 12 Performance Clusters



                      APPENDIX I. MANAGEMENT’S COMMENTS




                                                 35
